<html>
<title> - WELCOMING BUSINESS TRAVELERS AND TOURISTS TO AMERICA ACT OF 2011</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]







    WELCOMING BUSINESS TRAVELERS AND TOURISTS TO AMERICA ACT OF 2011

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                   IMMIGRATION POLICY AND ENFORCEMENT

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                                   ON

                               H.R. 3039

                               __________

                              MAY 17, 2012

                               __________

                           Serial No. 112-107

                               __________

         Printed for the use of the Committee on the Judiciary



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



      Available via the World Wide Web: http://judiciary.house.gov

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

74-260 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001













                       COMMITTEE ON THE JUDICIARY

                      LAMAR SMITH, Texas, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        HOWARD L. BERMAN, California
HOWARD COBLE, North Carolina         JERROLD NADLER, New York
ELTON GALLEGLY, California           ROBERT C. ``BOBBY'' SCOTT, 
BOB GOODLATTE, Virginia                  Virginia
DANIEL E. LUNGREN, California        MELVIN L. WATT, North Carolina
STEVE CHABOT, Ohio                   ZOE LOFGREN, California
DARRELL E. ISSA, California          SHEILA JACKSON LEE, Texas
MIKE PENCE, Indiana                  MAXINE WATERS, California
J. RANDY FORBES, Virginia            STEVE COHEN, Tennessee
STEVE KING, Iowa                     HENRY C. ``HANK'' JOHNSON, Jr.,
TRENT FRANKS, Arizona                  Georgia
LOUIE GOHMERT, Texas                 PEDRO R. PIERLUISI, Puerto Rico
JIM JORDAN, Ohio                     MIKE QUIGLEY, Illinois
TED POE, Texas                       JUDY CHU, California
JASON CHAFFETZ, Utah                 TED DEUTCH, Florida
TIM GRIFFIN, Arkansas                LINDA T. SANCHEZ, California
TOM MARINO, Pennsylvania             JARED POLIS, Colorado
TREY GOWDY, South Carolina
DENNIS ROSS, Florida
SANDY ADAMS, Florida
BEN QUAYLE, Arizona
MARK AMODEI, Nevada

           Richard Hertling, Staff Director and Chief Counsel
       Perry Apelbaum, Minority Staff Director and Chief Counsel
                                 ------                                

           Subcommittee on Immigration Policy and Enforcement

                  ELTON GALLEGLY, California, Chairman

                    STEVE KING, Iowa, Vice-Chairman

DANIEL E. LUNGREN, California        ZOE LOFGREN, California
LOUIE GOHMERT, Texas                 SHEILA JACKSON LEE, Texas
TED POE, Texas                       MAXINE WATERS, California
TREY GOWDY, South Carolina           PEDRO R. PIERLUISI, Puerto Rico
DENNIS ROSS, Florida

                     George Fishman, Chief Counsel

                   David Shahoulian, Minority Counsel















                            C O N T E N T S

                              ----------                              

                              MAY 17, 2012

                                                                   Page

                                THE BILL

H.R. 3039, the ``Welcoming Business Travelers and Tourists to 
  America Act of 2011''..........................................     3

                           OPENING STATEMENTS

The Honorable Elton Gallegly, a Representative in Congress from 
  the State of California, and Chairman, Subcommittee on 
  Immigration Policy and Enforcement.............................     1
The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Ranking Member, Subcommittee on 
  Immigration Policy and Enforcement.............................    12

                               WITNESSES

The Honorable Joe Heck, a Representative in Congress from the 
  State of Nevada
  Oral Testimony.................................................    13
  Prepared Statement.............................................    16
Janice L. Kephart, Director of National Security Policy, Center 
  for Immigration Studies
  Oral Testimony.................................................    28
  Prepared Statement.............................................    31
Jessica Zuckerman, Research Associate, Allison Center for Foreign 
  Policy Studies, The Heritage Foundation
  Oral Testimony.................................................    43
  Prepared Statement.............................................    45
Edward Allen, Bernard L. Schwartz Senior Fellow, Council on 
  Foreign Relations
  Oral Testimony.................................................    50
  Prepared Statement.............................................    52

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Response from Jessica Zuckerman, Research Associate, Allison 
  Center for Foreign Policy Studies, The Heritage Foundation.....    60

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Lamar Smith, a Representative 
  in Congress from the State of Texas, and Chairman, Committee on 
  the Judiciary..................................................    63

 
    WELCOMING BUSINESS TRAVELERS AND TOURISTS TO AMERICA ACT OF 2011

                              ----------                              


                         THURSDAY, MAY 17, 2012

              House of Representatives,    
                    Subcommittee on Immigration    
                            Policy and Enforcement,
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 1:08 p.m., in 
room 2141, Rayburn House Office Building, the Honorable Elton 
Gallegly (Chairman of the Subcommittee) presiding.
    Present: Representatives Gallegly, Smith, King, and 
Lofgren.
    Staff Present: (Majority) Andrea Loving, Counsel; Marian 
White, Clerk; and (Minority) Gary Merson, Counsel.
    Mr. Gallegly. I call the Subcommittee to order. Today we 
are conducting a hearing on H.R. 3039, the ``Welcoming Business 
Travelers and Tourists to America Act of 2011.''
    The legislation raises important issues, including how we 
balance our Nation's security and counterterrorism efforts with 
our desire to encourage increased tourism and more visitors 
from foreign countries.
    H.R. 3039 requires the Secretary of State to process visas 
for Chinese, Indians and Brazilians within 12 days. The bill 
also requires the Secretary to conduct a pilot program using 
videoconferencing to interview visa applicants. Supporters 
believe videoconferencing should be used in remote areas far 
from a U.S. consulate office.
    The bill also allows the Secretary to increase the period 
of visa validity for individuals from a certain country 
regardless of the reciprocal visa validity period for Americans 
traveling to that country.
    I am looking forward to the hearing from each of our 
witnesses and getting their assessment of these provisions 
contained in H.R. 3039.
    As we learned from past terrorist attacks in the United 
States or from other plots that have been foiled, we can never 
let down our guard in terms of preventing the entry of 
terrorists. And our visa processing system plays a critical 
role in keeping terrorists out of the country. For these 
reasons, I am eager to better understand how this legislation 
will impact the screening of potential terrorists by the State 
Department and other governmental agencies, while also ensuring 
that law abiding visitors can come to America for tourism and 
business.
    I appreciate the hard work from the gentleman from Nevada, 
Congressman Heck, on H.R. 3039 and look forward to his 
testimony, and now I would yield to the gentlelady from 
California, the Ranking Member Ms. Lofgren.
    [The bill, H.R. 3039, follows:]



    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Ms. Lofgren. Thank you, Mr. Chairman. Tourism is a vital 
U.S. industry so I thank the Chairman for holding this hearing 
and also Representative Heck for coming here to testify on his 
bill.
    As we emerge from the economic downturn, travel and tourism 
can help spark economic growth and create jobs. Currently 
international travel to the United States generates more than 
$153 billion annually in exports and supports 2 million U.S. 
jobs. In 2011 total direct travel spending in my State of 
California was $102.3 billion, supporting 893,000 jobs. Travel 
spending in 2011 generated $2.3 billion in local and $4 billion 
in State taxes for California.
    However, while significant revenue and jobs are supported 
by travel and tourism, America has been experiencing a decrease 
in market share. According to a study conducted by a coalition 
of American industries, the U.S. is estimated to have lost 
billions, $43 billion in 2005 alone, in visitor spending due to 
lost market share. According to the Department of Commerce, the 
positive balance of trade generated by inbound travel declined 
more than 72 percent between 1996 and 2005, from $26.3 billion 
in 1996 to just $7.4 billion in 2005. Since 2005 these losses 
have only grown as international travel continues to increase 
but the U.S. share of this travel market continues to decrease.
    As we lose market share in international travel, we also 
lose the ability to share American ideals with the rest of the 
world. Studies have shown that foreigners who visit the U.S. 
are 74 percent more likely to have a favorable view of our 
country and 61 percent are more likely to support the U.S. and 
its policies. The country thus suffers with fewer foreign 
visitors who are able to experience real American hospitality, 
kindness and values.
    Now I know some in America would like to further close down 
our borders to commerce and tourism. Some say that would make 
the country safer. But we know that would crush our economy in 
sectors ranging from agriculture to tourism, sap the vitality 
that immigrants bring to America, and go against the values we 
share with visitors, values that have been essential to our 
national character and exceptionalism. It would in fact make us 
much weaker economically and in other important ways.
    Rules that facilitate visa issuance for eligible foreign 
nationals are not only important for travel and tourism but 
also for American educational institutions, scientific and 
academic research, as well as U.S. business in a variety of 
industries. What we need is to find ways to welcome foreign 
visitors while continuing to protect, of course, national 
security. Simply put, we need to have smarter visa issuance 
procedures. To do this we should explore new technologies, 
including threat assessment tools, and videoconferencing 
technologies for which a pilot is proposed in Mr. Heck's bill. 
We should also explore ways to expand the visa waiver program, 
again while continuing to protect national security.
    This bill also has provisions to require faster visa 
processing for foreign nationals from some of the world's 
fastest growing economies. These are issues that are important 
for us to consider.
    The bill's provisions echo the approach outlined in 
President Obama's January 19th Executive order, which also 
seeks to increase visa processing capacity in China and Brazil 
and to ensure that applicants are interviewed in a timely 
manner. These are laudable goals, and I look forward to working 
with the Administration and Department of State to ensure that 
our visa process is as efficient and effective as possible.
    On June 26, 1963, before the Berlin Wall, John F. Kennedy 
said in one of his most memorable speeches, ``Freedom has many 
difficulties and democracy is not perfect, but we never had to 
put up a wall to keep our people in.'' What was true then 
remains true almost 50 years later. People from all over the 
world still want to come to America. Many come seeking a refuge 
from persecution, to get a job to support their families, to 
start a business or to begin their studies. And some just come 
to visit America to see Disney World, the Grand Canyon, to show 
their support at Ground Zero in New York, to visit our Nation's 
Capital. Many come because they love America and have dreamed 
of visiting our country for their whole lives.
    We should encourage this with smart visa policies that 
support travel and tourism, and I yield back, Mr. Chairman.
    Mr. Gallegly. I thank the gentlelady. We have very 
distinguished witnesses on both of our panels today. Each of 
the witnesses' written statements will be entered into the 
record in its entirety. I would ask that each witness summarize 
his or her testimony in 5 minutes or less to help stay within 
the time. There is a time, a little light out there that will 
be a good indicator. And I would just appreciate your 
consideration of that.
    And with that we will move to our first panel and our first 
witnesses, our good friend and colleague from the State of 
Nevada's Third District, Congressman Joe Heck. Welcome, Joe.
    Joe is currently serving his first term in the House. He 
serves on the Education and Workforce Committee and the Armed 
Services Committee. He also serves on the House Permanent 
Select Committee on Intelligence. And prior to serving in 
Congress Representative Heck spent 25 years in public service 
as a physician and Army reservist and community volunteer. 
Welcome this afternoon and we look forward to your testimony.

   TESTIMONY OF THE HONORABLE JOE HECK, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF NEVADA

    Mr. Heck. Thank you, Mr. Chairman. Chairman Gallegly, 
Ranking Member Lofgren, thank you very much for holding this 
hearing today on legislation I introduced this past fall, H.R. 
3039, the ``Welcoming Business Travelers and Tourists to 
America Act of 2011.'' I know there are several bills out there 
trying to address the visa processing issue. This is but one 
more trying to attack the problem from a different pathway.
    As you have mentioned, I represent the Las Vegas area where 
travel and tourism is the main industry, with hundreds of 
thousands of Nevada families relying on the travel and tourism 
sector as a source of jobs and income. To give you an idea of 
how large the travel and tourism industry is in the United 
States, in 2011 travel and tourism generated approximately $1.9 
trillion in total economic output. This can be directly linked 
to 2 million American jobs being supported and the exporting of 
$153 million in U.S. Goods.
    Additionally, international travelers spend about $4,300 
during each visit to the United States. Over the past 10 years 
from 2000 to 2010, the travel industry has seen major growth. 
According to the U.S. travel organization, global long haul 
travel has increased by 40 percent. However, as Ms. Lofgren 
mentioned, over this same time period the share of 
international travelers coming to the United States has 
dropped, dropped from 17 percent to 12 percent. This decline in 
the number of travelers coming to the U.S. has definitely been 
felt nationwide as well as in my home State. The hospitality 
industry is the largest employer in Nevada as well as the 
largest contributor to the State's general fund. But while the 
national unemployment rate has remained about 8 percent for 30 
months, the unemployment rate in Nevada has continued to hover 
around 12 percent.
    The Department of Commerce estimates that just returning to 
the 17 percent market share would generate almost $860 billion 
to our economy and create 1.2 million jobs. It goes without 
saying that America is struggling and something needs to be 
done to get folks back to work. Because I represent a district 
that is markedly dependent on the travel and tourism industry, 
I introduced H.R. 3039.
    The decrease in number of travelers coming to the U.S. 
cannot simply be attributed to a lack of desire to visit the 
United States but more so to a cumbersome travel visa 
application and processing system. In the past it has been 
reported that the State Department has posted interview wait 
times of more than 30 days, sometimes as much as 180 days, 
which exceeds its own internal goal of interviewing all visa 
applicants within 30 days. This can present major barriers for 
those wishing to travel to the United States because travelers 
do not have an accurate idea of the timeline to get an 
interview or when an appropriate time to apply for a travel 
visa would be because of a lack of information on historical 
wait times.
    My legislation seeks to modernize this process in several 
ways. H.R. 3039 mandates that the State Department implement a 
12-day visa processing standard to ensure timely processing of 
visas, requires the disclosure of historical data, encourages 
better coordination between State Department and Department of 
Commerce, and allows for the establishment of a visa 
videoconferencing pilot program and gives the Secretary of 
State the option to modify visa validity periods.
    I understand that some Members of the Committee will have 
concerns with the legislation, specifically from the homeland 
and national security aspect. Please let me assure you that as 
someone who has severed in both the Army Reserves an its 
homeland security sector for over 25 years, national security 
is of the utmost importance to me. Some of the testimony you 
will hear later is somewhat inaccurate and off base, having 
largely nothing to do with the provision of H.R. 3039. Nothing 
in this legislation does anything to increase or modify the 
visa waiver program, it does nothing to change the visa 
interview process, nor does it change the approval requirements 
for actually granting a visa. It just tries to streamline the 
process.
    The video processing, video teleconferencing provision I 
can tell you, from someone who has used secure 
videoconferencing in my military career as well as in my 
medical career, being able to have secure communications around 
the world and provide cutting edge, lifesaving medical 
treatment because of a high resolution in quality of sound and 
video is something that we should be able to explore in trying 
to grant visa interviews.
    As I mentioned, I have worked in the homeland security 
sector for a large part of my career, been both to Iraq and 
Afghanistan. As was mentioned, I am on the Armed Services 
Committee and the Select Committee on Intelligence. I know 
firsthand the threats of terrorism and national security. 
Nothing in this legislation that I have introduced is intended 
to compromise it in any way. Rather, it is bipartisan 
legislation that looks to streamline a process in a way that 
has already been proven by the Department of State's report on 
itself when it did its pilot study on how to use 
videoconferencing, and it is widely supported by the tourism 
travel and hospitality industry, by Discover America 
Partnership with over 50 members. We have letters of support 
that we would ask to enter into the record.
    At a time when we need jobs and increased economic growth, 
H.R. 3039 provides a solution at no cost to the taxpayer while 
maintaining safety and security.
    Thank you for this opportunity to testify before the 
Subcommittee on Immigration. I look forward to your questions 
and the discussion later today.
    [The prepared statement of Mr. Heck follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mr. Gallegly. Thank you for staying within the guidelines 
of the lights. You obviously have a military background, and I 
appreciate your credentials both from military and serving on 
the Intelligence Committee. You obviously no about many of the 
challenges that we are facing at a national security level, I 
am sure many cases beyond many of us.
    Regarding the in-person visa interview, you spoke a little 
bit about the electronic versus the in-person interview, but 
the in-person interview requirement was put in place as a 
result of the fact that only 2 of the 19 9/11 hijackers were 
interviewed for visas despite the State Department's authority 
to do so. Given that terrorists constantly attempt to and some 
are successful in entering the country by abusing U.S. 
immigration policy, shouldn't we make sure that every visa 
applicant has a sit down, face-to-face interview so that the 
consular has the best ability possible to determine the intent?
    I would yield back.
    Mr. Heck. Thank you, Mr. Chairman. I think the important 
point that you brought up was that only 2 of the 19 actually 
had an interview. This does nothing in changing having the 
interview, this actually opens up additional pathways to 
conduct interviews so that more people can actually have the 
interview. And with the newer technology, especially 
telepresence technology, it is almost like sitting in the room 
with the individual while you are conducting that interview. 
And so the technology has progressed significantly, even since 
the pilot study was done in 2006, that actually allows the 
ability for an individual to conduct a very comprehensive 
interview. I tell you I have talked to people from the consular 
staff. And they do have a lot of discretion. In fact I was 
given one anecdote where the person claimed to be a farmer but 
their visa was denied because according to the interview 
official they didn't have calluses on their hands to make it 
look like they were a farmer.
    I think that we need to be much more selective in how we 
decide to grant or not grant the visas, but what this program 
does is actually increase the ability for more interviews to be 
accomplished.
    Mr. Gallegly. The gentlelady from California.
    Ms. Lofgren. Yes. I remember when I was in local government 
we did--the courts did arraignments by video. Something as 
fundamental as your due process rights in a criminal proceeding 
could be accommodated through a video transaction. So I think, 
and you are right, Cisco is headquartered in my district. Their 
telepresence, I mean it is like you could touch the person, it 
is so like being there, it is amazing technology. So I think it 
is very creative and I think there is a lot of promise with 
that.
    I wanted to talk about the 12-day visa processing standard. 
I like it, but here is the concern I have and I am not sure 
that I have the solution and maybe you do. If you don't have 
additional resources, and I realize using the video capacity 
will help some in that, the easy thing is just to say no. And 
so you might end up with an increased number of arbitrary noes 
to accommodate the 12-day requirement. Have you thought about 
that and what we might do about that? Because these decisions 
are not reviewable by anybody.
    Mr. Heck. Yeah, thank you for that question. In fact, we do 
allow within the bill for the State Department to increase the 
visa fee to be able to offset the additional resources that may 
be necessary to meet that timeline of trying to get them done 
within 12 days. In addition, I will say that when we met with 
the Department of State officials they were concerned that in 
the event they would need to move people due to humanitarian 
crisis or evacuation of U.S. citizens and they needed more 
officials in another area, that that would pose some difficulty 
for them and we were willing to help them with that and say 
look, we would be willing to allow----
    Ms. Lofgren. I saw that you accommodated that, yes.
    Mr. Heck. During a time of national crisis or humanitarian 
crisis where individuals needed to be redeployed. I think the 
key is that they already looked at increasing some of the 
resources in these three targeted countries.
    Ms. Lofgren. I met with the ambassador in Brazil and they 
are in the process of gearing up right now. I mean it is 
insane, you can't even get inside the building for your 
application to be heard, and they are gearing up so that they 
can do, he says, a better job.
    I guess I would just say I don't know I have a solution but 
we have all in our capacity as advocates for our constituents 
seen cases where it is inexplicable why someone doesn't get a 
visa and then they are coming for the daughter's wedding and 
they can't get in and you get the call. Certainly we want 
national security issues but in some cases there is really 
almost arbitrary denials for people who have legitimate needs 
to visit family. So I am just concerned this could aggravate 
it. But maybe there is a way to get around that. I would love 
to talk to you further after the hearing about it and 
brainstorm on that.
    Thank you. I yield back Mr. Chairman.
    Mr. Gallegly. The gentleman from Iowa, Mr. King.
    Mr. King. Thank you, Mr. Chairman. Thank you, Mr. Heck, for 
your testimony and taking the initiative on a bill that I 
understand matters to your constituents and a number of people 
across the country. I always look at numbers and I get curious 
about how they are derived, so I want to just take you back 
that $1.9 trillion in economic activity that is derived from 
tourism and let's see then from that. The first question I had 
was how much is derived from foreign tourism and I think you 
had 1 out of $7 in the United States derived from foreign 
tourism. So I am extrapolating these numbers but can you source 
that 1.9 trillion for me first?
    Mr. Heck. The 1.9 trillion is the tourism industry in 
general, both domestic and international, to the United States 
and the number comes from the U.S. Travel Organization.
    Mr. King. Okay, generally a consensus between all of them 
then. And so I began to wonder then what percentage of the U.S. 
GDP that would be, so I took one-seventh of that number and 
came up with 271 billion and divided it by 15 trillion GDP just 
to pick a round number, and I came up with 1.8 percent of our 
economic activity that is foreign travel according to this 
number. Then you also had testimony that says that the global 
longhaul travel has been reduced--or been increased by 40 
percent in the same period of time longhaul global travel to 
the U.S. Has dropped from 17 to 12 points.
    Do you have an estimate on how much of global longhaul 
travel is for impact on the United States economy?
    Mr. Heck. It was estimated by the Department of Commerce 
that if we were able to get from 12 percent back up to 17 
percent that that would be about $860 billion worth of economic 
activity.
    Mr. King. That number was on the first page of your 
statement, I understand. But how much of this then can be tied 
to a delay in visa, issuing visas, how do you link those two 
together?
    Mr. Heck. Well, we know that certainly from the experience 
that we have had in southern Nevada which is very dependent on 
travel and tourism and especially business travel and the 
convention industry, there was a travel and tourism summit held 
that had representatives from all of the major trade shows in 
attendance, and they have talked about how they have had 
difficulty in bringing foreign travelers to the trade shows 
here in the United States, primarily for people to come, those 
who want to show their wares because the lead time takes too 
long to know whether you are going to get a visa before you 
actually book convention space. And they have found that those 
same shows have seen an increase in their attendance in foreign 
locations; those shows are held in Europe, they are seeing an 
increased attendance there and they are seeing a dropoff in 
attendance in the shows in the United States.
    Mr. King. And I do hear some of these complaints. Is the 
lead time all together from say the average application time 
until such time as the visa is issue, what is that average lead 
time, do you know?
    Mr. Heck. Well, for the countries we are trying to address 
through the bill the wait times has been as high as 180 days 
just for the visa interview, not the granting or denial of the 
visa, just to get an interview.
    Mr. King. Is there a mean time or an average time though 
rather than extreme time?
    Mr. Heck. In those three countries they vary. Brazil has 
been--China has been as high as 180 days, Brazil has been as 
high as 60 to 70 days. India has been even higher at times. So 
I do not have a mean time of all three countries.
    Mr. King. But I do have some information here that gives I 
believe it was average wait times for different cities in 
China, Beijing, Shanghai and several others, that show 2 to 4 
days of an average lead time. Do you have experience also that 
that happens?
    Mr. Heck. Right, those numbers have been within the last 4 
to 5, 6 months, actually since the bill has been introduced. 
But again we have seen wait times far exceeding that.
    Mr. King. And I think to be clear for this panel, too, that 
what I have expressed here is wait time for the interview, not 
the full time for the issuance for the visa, just to put some 
balance to this discussion.
    Mr. Heck. Right.
    Mr. King. So to some degree your bill has had a positive 
affect in a positive way. I would make that point so you don't 
have to or actually you already did. But I have been looking 
on. I would add also we have a similar times down in South 
America, Brazil, 2 days, 2 days, Rio de Janeiro 1 day, Sao 
Paulo 25 days. Odd that it would be had a high out of Sao 
Paulo. And then you go into Asia and you see New Delhi 4 days, 
Mumbai 4 days, but there are some longer dates there too. It 
looks to me like the issue time is reasonable if you look at it 
from an average standpoint or a mean standpoint and probably 
plenty of lead time for someone to be able to plan a convention 
and book their travel, but it is the extremes that you are 
concerned about. Do I interpret that correctly?
    Mr. Heck. That is correct. And also one of the major 
reasons for the videoconferencing provision is that those 2 to 
4-day times is in that city, somebody applies within that city, 
but in these larger countries it may take somebody 2 days to 
travel to the consulate to be able to get the interview, and 
that is after being scheduled for the interview. And so the 
videoconferencing from remote locations will help expedite that 
process as well.
    Mr. King. Would you do patient exam over conferencing?
    Dr. Heck. I have many times.
    Mr. King. And would you diagnose over that?
    Dr. Heck. We have many times. The resolution and the 
quality now is such that you can provide cutting edge life 
saving care via telemedicine around the world, and I have done 
it on several occasions.
    Mr. King. I have another topic we will talk about in 
person. Thank you, doctor, I appreciate your testimony.
    Mr. Gallegly. I thank the gentleman from Iowa, and I thank 
you for being here today, Joe.
    We will turn to our second panel.
    Our first witness is Janice Kephart, the Director of 
National Security Policy at the Center for Immigration Studies. 
She served as counsel to the 9/11 Commission. Ms. Kephart 
received her JD from Villanova Law School and her Bachelor's 
Degree from Duke University. Welcome.

 TESTIMONY OF JANICE L. KEPHART, DIRECTOR OF NATIONAL SECURITY 
             POLICY, CENTER FOR IMMIGRATION STUDIES

    Ms. Kephart. Thank you for having me. Thank you for the 
invitation to testify and your continued interest in visa 
security.
    The bill we are considering today mimics President Obama's 
visa waiver interview pilot program announced in January 2012 
for China, India and Brazil. The effect of the President's 
program is still unknown in terms of reducing application 
processing time. If the pilot achieves the aims the President 
seeks; that is, to dramatically reduce visa processing times by 
negating many visa interviews and visa revetting, then this 
bill is unfortunately unnecessary, untimely and premature. 
Especially concerning is that this bill probably unknowingly 
supports the President's amnesties policies that include not 
enforcing immigration law against illegal population but for 
convicted criminals and terrorists.
    What does systematic enforcement of immigrant immigration 
law have do with this bill? Well, crunching out more tourist 
visas will add to more tourists likely becoming overstays. 
According to 2011 GAO reporting, ICE only actively pursues 3 
percent of the overstay population due to resource constraints. 
None other than criminals and terrorists are pursued now, and 
even the criminal deportation numbers are half of what they 
were in 2010, with a paltry 5,500 identified in the first 
quarter of 2012, with twice that many identified in the same 
quarter in 2010. What does this mean for Chinese, Brazilian and 
Indian illegal population numbers? To me this means they will 
grow.
    For years Brazilians and Indians have come to the United 
States for many reasons, but also to get away from poverty, 
while Chinese often come to escape a repressive regime. That is 
good, right? This is America, we welcome people here for a 
better life. But unfortunately, that is not the end of this 
story. China openly commits significant corporate government 
and university espionage on American soil, and it uses its own 
citizens to do it.
    Just as disturbing is the incredibly high illegal alien 
population numbers from China, India and Brazil currently in 
the U.S. These three countries have increased their illegal 
status in the U.S. By nearly 70 percent collectively in the 
last decade, with 700,000 illegal aliens in the U.S., 
representing 6 percent of the total 11.5 million of the illegal 
population. China is the biggest producer of illegal aliens 
outside this hemisphere ranking fifth of the 180 Nations in the 
world, India ranks seventh, Brazil is close behind. And here is 
the clincher, most of these illegals must be overstays from 
issued visas.
    As to those arguing that there is sufficient security in 
the automated check State now does of visa applicants and 12 
days is sufficient time to get all applicants, let me say this. 
First few, if any of the problems in visa issuance with the 9/
11 hijackers had anything to do with technology or databases 
vetting the applicants. Rather, the issue is that the 
interviews that could have detected fraud and lies were simply 
not done. In the one instance where there was an extensive 
interview at a border security inspection at Orlando 
International Airport, potential Flight 93 hijacker Mohammed 
al-Qahtani was forced to return to Saudi Arabia only because 
his interview was done.
    Second, fraud does not change depending on where a person 
is from or what the intent is in coming to the United States. 
Fraud is fraud whether used by terrorists, spy, criminal or 
simple economic migrant. Whether committed in 2000 or the year 
2012, the commonality is it that it all breaks the law, it is 
all detectable, but usually only through the interview process.
    Third, State's Deputy Assistant Secretary of Consular 
Affairs, Ed Ramotowski, reiterated this point in a September 
2011 hearing before House Homeland, making clear that the 
automated security checks and review of submitted documents 
don't catch what an interview will, saying, ``The personal 
interview that our officers conduct in our embassies and 
consulates often note discrepancies in the interview that open 
a line of inquiry and lead to a visa denial when necessary.''
    Fourth, it is also important to revet visas, a case made 
manifestly clear by the fact of the Christmas Day bomber's visa 
issuance and which is reduced in this bill.
    And lastly, terrorist organizations or governments seeking 
to use their citizens as spies are likely to recruit from those 
that have already been issued U.S. visas. It is foolish to 
assume that vetted once means no revetting need take place.
    In regard to videoconferencing, there are a host of 
security issues that are specific a visa interview, including 
State Department personnel safety that I note in my written 
testimony that are not addressed in the bill fully.
    In regard to section 7 of the bill it gives limitless 
authority to the Secretary and what can be done to visa 
categories or visa terms with any country, under any 
circumstances, very dangerous for immigration policy and 
diplomacy and our national security.
    In conclusion, illegal activity needs to be curtailed 
significantly and current immigration law enforced before we 
consider broadening out our visa policies even further than 
already done by the President as this bill would do.
    Thank you.
    [The prepared statement of Ms. Kephart follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Gallegly. Thank you very much, Ms. Kephart. Our next 
witness is Ms. Jessica Zuckerman. She is a Research Associate 
at the Heritage Foundation House and Center for Policy Studies. 
She researches and writes on issues such as border security, 
counterterrorism, immigration policy, among others. Ms. 
Zuckerman received her Master's Degree from George Washington 
University and holds a Bachelor's Degree from Ohio State 
University. Welcome, Ms. Zuckerman.

  TESTIMONY OF JESSICA ZUCKERMAN, RESEARCH ASSOCIATE, ALLISON 
   CENTER FOR FOREIGN POLICY STUDIES, THE HERITAGE FOUNDATION

    Ms. Zuckerman. Thank you for the opportunity to be here 
today. I believe very strongly in the need to tackle the 
challenges of facilitating legitimate travel by reducing 
unnecessary barriers to issuing visas.
    The policies contained in H.R. 3039 are a commendable step 
in reducing visa backlog and derive two significant benefits in 
my opinion. The first advantage is job creation as was 
discussed. Currently inbound travel to the U.S. Supports almost 
2 million American jobs and the value of global travel is 
expected to double to more than 2 trillion over the next 10 
years. Unfortunately, the U.S. Share of long distance travel is 
shrinking. According to the U.S. Travel Association, this 
decline is said to have resulted in the loss of approximately 
78 million visitors and over half a trillion in lost spending. 
If America recaptures its fair share of international travel by 
some estimates more than 1 million jobs could be created over 
the next decade.
    The second advantage is public diplomacy. As the Ranking 
Member has pointed out, surveys of international visitors to 
the U.S. Have shown that foreigners who travel to the country 
are over 74 percent more likely to view the U.S. favorably and 
61 percent more likely to support the U.S. And its policies.
    These are just a few of the many reasons the United States 
should work to regain its rightful share of long distance 
travelers. And it is my view that this can be done without 
disadvantaging homeland security. With these advantages in 
mind, I would like to briefly explore some of the background 
issues.
    Currently one of the most vexing burdens for foreign 
visitors wishing to obtain a visa is long wait times for 
applicants to be interview at overseas consular offices. In May 
of 2010 the Department of Commerce and State indicated the visa 
wait times in high volume countries such as Brazil and China 
were anywhere between 1 to 5 months. While the State Department 
has done much to improve wait times in these nations more 
remains to be done.
    H.R. 3039 would set a reasonable visa processing standard 
of no more than 12 days for citizens in the high-volume nations 
of China, Brazil and India. These standards would serve to 
codify many of the changes made by the Department of State over 
the past year and help to combat extensive visa wait times.
    Standards, however, are nothing without the resources to 
meet them. Recognizing this fact, H.R. 3039 also calls for the 
use of fees collected from issuing machine readable 
nonimmigrant visas to hire additional consular personnel. The 
processing standards contained within H.R. 3039 offer a strong 
first step in reducing overly burdensome visa wait times.
    The legislation also calls on the Secretary of State to 
conduct a 2-year pilot program for the processing of 
nonimmigrant visas via secure videoconferencing. In many large 
countries such as Brazil and India citizens may have to travel 
for hours or even days at great personal expense in order to 
reach a U.S. consulate to conduct their visa interview. The use 
of secure videoconferencing would help to ease this burden, 
allowing for remote interviews for individuals living far from 
the U.S. consulate. It also offers the potential to expand the 
Department of Homeland Security's visa security program where 
consular facilities do not have the space or resources to house 
visa security officers.
    Finally, H.R. 3039 would also require the State Department 
to publish data on wait times for visa interview appointments 
and visa application processing as well as provide performance 
assessments of how the department is responding to increased 
demand for visas. Such data would be crucial in helping the 
Department of State to understand bottlenecks in visa 
application rates. Publishing this data would also serve to 
encourage individuals to apply for visas at times of lower 
demand. I would urge the Congress to seriously consider such 
initiatives aimed at facilitating greater travel to the U.S. 
without compromising security.
    Thank you, and I look forward to your questions.
    [The prepared statement of Ms. Zuckerman follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Gallegly. Thank you, Ms. Zuckerman. Our next witness, 
Mr. Edward Alden, is the Bernard L.
    Schwartz, Senior Fellow at the Council on Foreign 
Relations. Prior to joining the Council Mr. Alden was the 
Washington Bureau Chief for the Financial Times and also served 
as the project director for the independent task force on 
immigration policy. Mr. Alden holds a Master's Degree in 
international relations from the University of California 
Berkeley.
    Welcome, Mr. Alden.

 TESTIMONY OF EDWARD ALDEN, BERNARD L. SCHWARTZ SENIOR FELLOW, 
                  COUNCIL ON FOREIGN RELATIONS

    Mr. Alden. Thank you very much, Chairman Gallegly and 
Ranking Member----
    Ms. Lofgren. Could you turn your microphone on?
    Mr. Alden. There we go. Thank you very much to both of you 
for inviting me to testify today.
    I have studied U.S. Visa policy for a number of years. My 
2008 book, The Closing of the American Border, detailed the 
mistakes in visa processing that were made before the 9/11 
attacks, but also examined the negative economic and diplomatic 
consequences of the decline in travel to the United States 
after 2001.
    More recently I coauthored with Liam Schwartz, an American 
Israeli immigration lawyer who is one of the world's foremost 
experts on visa processing, a Council on Foreign Relations 
report recommending improvements to the U.S. visa system to 
speed processing without sacrificing security. I agree with Ms. 
Zuckerman that the record of progress in recent years shows 
that efficiency and security can go hand in hand and that the 
United States does not need to harm its economy to safeguard 
its borders.
    While it is far from comprehensive and not without some 
problems, the legislation before you today deserves support. It 
would promote job creation by addressing inefficiencies in the 
visa system. In particular, it takes on one of the chronic 
problems that we have seen over the past decade which is that 
improvements in visa processing times have not durable. The 
State Department has periodically reduced the waiting times by 
surging staff when the backlogs have grown unacceptably long, 
only later to relocate staff or fail to anticipate demand 
increases and have the wait times balloon again. The exchange 
between Mr. King and Congressman Heck is very much about this. 
You go back a year ago and the wait times in many places were 
2, three, 4 months. The State Department has put resources into 
these countries and the wait times have been reduced 
dramatically.
    This legislation would set a new visa processing standard 
of 12 days or fewer in the biggest markets that have been 
subject to the longest delays.
    H.R. 3039 should, however, be approved as part of a broader 
package of legislation that includes reforms to the criteria 
for expanding the visa waiver program and encourages more 
efficient visa security screening.
    Since 9/11, the United States has made considerable 
progress in improving the security and integrity of the visa 
system. But this was not accompanied for many years either by 
either staffing increases or by technological improvements to 
maintain efficient visa processing. The result has too often 
been long delays for visa applicants. The falling U.S. Share of 
world travel, which is in part the consequence of visa issues, 
certainly not all by any means, has hurt the United States 
economically by discouraging tourists and business travelers.
    Tourism is the largest service export in this country and 
expanding travel is an easy way to create hundreds of thousands 
of jobs. The good news is that the State Department has 
recently made improved visa processing a high priority and has 
increased staff and significantly reduced waiting times in key 
markets like China and Brazil. These improvements are being 
made without additional expenditures of taxpayer dollars, which 
is important given budget constraints. The fees charged to 
foreign travelers fully cover the cost of additional staffing 
and improved technology. There was just an increase in the 
tourist fee by $20 to $160 last month, for instance.
    H.R. 3039 would build on this recent progress. 
Establishment of the 12-day standard is a reasonable target. 
The Department of Commerce's U.S. Travel and Tourism Advisory 
Board has recommended a more ambitious 5-day target. Virtually 
all U.S. Missions in these countries, Sao Paulo is one of the 
few exceptions, are currently meeting the standard. But as I 
elaborate in my written testimony, the legislation should make 
clear that this is a goal, not a deadline. Flexibility in 
implementation is essential.
    The bill also promises better transparency. The Department 
of State maintains current wait times but doesn't show us 
historically whether wait times have gone up or down in 
different locations. And the legislation would also require an 
annual visa demand forecast to help manage workload.
    H.R. 3039 is only one element of the changes needed to make 
sure the United States has the most secure and efficient travel 
system in the world. Increasingly improvements in screening 
technology and information sharing are making it possible to 
enhance security even as processing speeds improve. This 
approach should be wherever possible to focus consular 
resources on higher risk travelers.
    I just want to make one quick point on the 9/11 Commission 
before I sum up. The 9/11 Commission looked at the whole realm 
of problems prior to 9/11 and interviews clearly were an issue, 
especially in Saudi Arabia, but the biggest failures were 
failures of information sharing. Two of the hijackers 
identified by the CIA as al Qaeda operatives, that information 
not shared with the State Department, those individuals not 
watch listed. The 9/11 Commission rightly focused on 
information sharing as the key element to protecting our 
borders against terrorist travel. They even acknowledged that 
had the interviews been done in Saudi Arabia, consular officers 
at the time were looking for people who might overstay and the 
Saudis didn't do that. Very few if any of the hijackers would 
likely have been turned back by interviews. So the 9/11 
Commission, if you read their recommendations, says it is 
critical that border screening systems check people efficiently 
and welcome friends, that admitting large numbers of students, 
scholars, business people, and tourists fuels our economy, 
cultural vitality and political reach, and they call for the 
design of these security measures to be updated and adapted to 
meet that goal and the goals of security.
    Thank you very much.
    [The prepared statement of Mr. Alden follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Gallegly. Thank you very, Mr. Alden. I am going to try 
to make my questions a little expedited because we are 
scheduled for votes momentarily and I don't want to hold you 
here for an hour or so because there are a series of votes.
    Very briefly, Ms. Kephart, would you be kind enough to 
respond as the counsel on 9/11 Commission, you may or may not 
have had a little different perception as to the statement that 
Mr. Alden presented, could you respond to that?
    Ms. Kephart. Sure. I was a counsel on the 9/11 Commission 
assigned to the border team, I did all the immigration work for 
the 9/11 Commission for how the hijackers got in and stayed in. 
And I also conducted all the interviews of all the border 
inspectors who had let the hijackers in as well. So I come at 
this from a perspective, having been also an author of the 9/11 
and Terrorist Travel monograph, with a very, very strong sense 
of what our border recommendations were and why we insisted on 
the in-person interview. I was also the one who found out and 
discovered Mohammed al-Qahtani as the potential 20th hijacker 
who did not get in. It was based on the behavioral interview 
that we had done of him at Orlando International Airport, 
August 2001, that our commissioners decided to include the 
paragraph in the 9/11 Commission final report, in the 
recommendations, about the importance of the interview and the 
importance of determining behavior. It was critical to us, and 
so I do take a little bit of an issue at the interpretation of 
the 9/11 Commission report.
    Thank you for letting me respond.
    Mr. Gallegly. Thank you, Ms. Kephart. In the interest of 
time I would yield to the gentlelady from California, the 
Ranking Member, Ms. Lofgren.
    Ms. Lofgren. Thank you. In the 9/11 Commission report on 
page 389, it indicates that we should have efficiency and that 
admitting large numbers of student scholars and business people 
and tourists is basically good for the country. But the last 
sentence in that paragraph says, training and design of 
security measures should be continuously adjusted.
    Now in the footnote to that paragraph it says this, one 
post-9/11 screening process known as Condor has conducted over 
130,000 extra name checks. The checks have caused significant 
delays in some cases but have never resulted in visas being 
denied on terrorism grounds.
    That makes me wonder whether we should examine the utility 
of that particular--I mean, we want to be protected but if we 
are doing something that doesn't yield value except for delay 
maybe we ought to be doing something else in terms of security. 
So, I am wondering, Mr. Alden, you have studied this 
considerably. We put about 366,000 people through the SAO 
process every year. Is there a more efficient way of dealing 
with our security concerns than what we are doing now.
    Mr. Alden. I strongly believe there is. I know it is not 
directly the topic of this legislation, but it arises out of 
the concern you expressed in your question to Mr. Heck, which 
is if interviews are moving at a more rapid pace you were 
worried by the danger of arbitrary denials. I think more likely 
what we will see is more individuals being put into what they 
call the security advisory opinion system, which is a very 
lengthy background check. And there is no question in some 
cases these are appropriate. The problem is that the numbers 
have grown extraordinarily.
    So there were, you mentioned, 366,000 visa applicants put 
into these reviews last year. They take a long time, an average 
about 4 weeks, in some cases much longer, months and even 
years. The troubling thing about this, a lot of these 
individuals are highly skilled individuals so we do it for 
people with technology backgrounds.
    Ms. Lofgren. Believe me, I hear about it from Silicon 
Valley all the time.
    Mr. Alden. Aerospace companies, semiconductor companies, 
these are people with skills who automatically get put into 
these background checks. You have it happening in India a lot. 
The State Department has been working for some time, and I am 
puzzled as to why they haven't rolled it out, systems that 
would more efficiently narrow down the number of people who are 
determined to need these long background checks. The technology 
is much better than it used to be in raising red flags that 
this is someone that we really need to take a careful look at, 
and these numbers should be much smaller, nothing like 366,000.
    Ms. Lofgren. Let me ask you this. Whenever I go overseas I 
always try and go into the embassy or consulate and talk to the 
people that are actually doing the processing to get a sense 
from them directly how it is going and what their suggestions 
are. One of the issues is that our State Department employees 
can't actually access the database, they have to hand it over 
to Homeland and that is inherently delayed, and having served 
for 10 years on the Homeland Security Committee, I regret to 
say that the Department of Homeland Security is not a model of 
efficiency, and that would be bipartisan inefficiency. Under 
both Administrations it hasn't been that great.
    Would it help expedite--I mean, these State Department 
employees have background checks, they are as reliable as other 
American employees--to let them access the databases that 
Homeland never gets around to checking, would that help?
    Mr. Alden. This has broadly speaking been a constant 
problem over the last decade. There has been a tremendous 
challenge in integrating the different databases that contain 
information about individuals who raise concern on terrorism or 
criminal grounds. There has been real progress. This is an 
enforcement example rather than terrorism example, but the 
State Department consular officers now have data on overstays. 
So if you have flown into an airport in United States and you 
flew back to your country after the period of your visa 
expiration, if you go to apply for another visa that will come 
up on the screen of the State Department consular official and 
they are at least going to want a pretty good explanation of 
why you didn't go home on time the last time.
    Ms. Lofgren. No delay would count but otherwise----
    Mr. Alden. Yeah, quite a reasonable set of questions. So 
there have been improvements on that front, but I agree still 
real issues with information not being shared freely across the 
agencies. Really if you look at it, DHS and State have the same 
mission here.
    Ms. Lofgren. Right.
    Mr. Alden. This is what they call a layered screening 
system to try to be sure that there are multiple points in 
which it is possible to identify people that we want to keep 
out of the country.
    One of the ironies of the Christmas Day bombing story is 
that CBP officials, once he was on the airplane, ran their 
checks and they said this is a guy, as soon as he gets to 
Detroit we are going to pull him aside and question him and 
probably send him on the next plane back home. That turned out 
to be too late, and there have been a number of efforts since. 
But it is a layered system----
    Ms. Lofgren. The sooner we get that information, the better 
off.
    Mr. Alden. Yes.
    Ms. Lofgren. Thank you, Mr. Chairman.
    Mr. Gallegly. The gentleman from Iowa, Mr. King.
    Mr. King. Thank you, Mr. Chairman. Ms. Zuckerman, you heard 
the discussion I had with Mr. Heck regarding the economics of 
travel and I would point out, do you agree with that $1.9 
trillion in economic activities as a consensus number that we 
heard here. And then his testimony says 1 out of $7 are of 
foreign travel dollars. That mapped out to be $271 billion in 
economic activity here. And I notice that in your written 
testimony you had that number set at $606 billion but your oral 
testimony was more than a half trillion. Both of those 
definitions do fit but those numbers don't match. Can you tell 
me why?
    Ms. Zuckerman. I can't but I can double-check that and 
submit it for the record.
    [The information referred to follows:]
    
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. King. I would be interested in that. I hear a lot of 
economic discussions. So I would like it if we could agree on 
the numbers we are discussing here. You had 2 million American 
jobs that were used on tourism and travel. I remember testimony 
in this Committee that we needed to bring more immigrants in to 
do that work. Would have you an idea of what percentage of 
those 2 million American jobs would be jobs that we are 
actually seeking to fill or have filled by legal or illegal 
immigrants?
    Ms. Zuckerman. I don't have that offhand, no.
    Mr. King. Just my curiosity, as I read through your 
testimony, Ms. Zuckerman. And I also notice note that you point 
out in May of 2011 is the time that you have here when you 
identified that there are wait times in countries such as 
Brazil and China anywhere between 1 to 5 months. Do you agree 
with Mr. Heck that that wait time has diminished significantly 
over the last, say, 6 months or the last year would be 
appropriate. This is 1-year old data, correct?
    Ms. Zuckerman. Yes, this is the height.
    Mr. King. Then to take you back to the data that I quoted 
to Mr. Heck on the 2 and 4-day wait periods with various cities 
in places like China and Brazil and in Asia. The Beijing 2 
days, Shanghai 4 days, and Brazilia 2 days, Sao Paulo was the 
anomaly in this whole list at 25 days. I wanted to make sure 
that I understand this correctly, the process that one uses to 
apply for a visa can now be--the application can be online and 
that is available to everyone now, isn't it, online 
application? And at that point can't they also schedule an 
interview online?
    Ms. Zuckerman. I am not positive, but I believe so.
    Mr. King. I am confident that that is the case. As I review 
the material that I am looking at from the State Department, 
that one can go online and apply for a visa and schedule the 
online interview and these dates that I have given here are 
State Department numbers, 2 to 4 days for almost every one of 
these major cities within the countries in question with the 
exception of Sao Paulo.
    So if it is a 2-day waiting period to schedule the 
interview, when they finish the interview can you tell me will 
they then receive the visa, if it is going to be issued on the 
spot?
    Ms. Zuckerman. It would have to go through possibly a 
background process if they are flagged as was mentioned by----
    Mr. King. Let me ask Ms. Kephart who has dealt with this. 
Can you illuminate that subject a little bit for me?
    Ms. Kephart. Can you repeat the question one more time? We 
have gone on a long string of--I am sorry.
    Mr. King. Of course. I have had that happen to me before 
too. The question is when one applies for a visa one can do so 
online and then schedule the interview online.
    Ms. Kephart. Yes.
    Mr. King. If the interview time, according to the State 
Department, now in most of these cities is 2 to 4 days, then 
when one schedules the interview say within say 48 hours or 
perhaps more, when they arrive for that interview, the in-
person interview that you advocated, do they receive the visa 
normally at that meeting?
    Ms. Kephart. Well, according to the information that you 
provided, I don't know if they are providing it at the meeting, 
at the actual meet itself. My memory of it was it was not 
always at the meetings. Sometimes there is a was a few days lag 
time. But if you are talking about 2 to 4 days that is not a 
big deal, especially when you need to revet.
    If you have an officer in front of you and that officer 
begins to note fraud in your interview, they are going to want 
to check out more. That is why you need more time. Sometimes 
you can't do that within 2 to 4 days. Sometimes you can't even 
do it within 12 days if it looks like you have a large fraud 
scheme in front of you.
    Mr. King. Thank you. I turn the question to Mr. Alden. Can 
you identify anything in this bill that enhances security?
    Mr. Alden. That enhances security.
    Well, I think by setting--most of the bills are about 
facilitation. I think you are right about that. The question is 
does it detract from security. My argument would be no, it in 
no way detracts from security. I think the issue is can you be 
efficient and secure at the same time.
    Mr. King. I heard that testimony. Ms. Zuckerman, do you 
agree with Mr. Alden? 
    Ms. Zuckerman. Yes.
    Mr. King. And Ms. Kephart, do you?
    Ms. Kephart. No, I think this is a facilitation bill and 
the security is dumbed down and numbed down by it.
    Mr. King. Thank you. I yield back.
    Mr. Gallegly. I thank the gentleman, and I want to thank 
our witnesses. I would like to have had a little more time 
today, but the bells are about to go off. I want to thank each 
of the witnesses today for your testimony.
    Without objection, all Members will have 5 legislative days 
to submit to the Chair additional written questions for the 
witnesses which we will forward and ask the witnesses to 
respond as promptly as they can do so and that the answers may 
be made a part of the record of the hearing.
    Without objection, all Members will have 5 legislative days 
to submit any additional materials for inclusion in the record.
    And with that, I again thank the witnesses and this hearing 
is adjourned.
    [Whereupon, at 2:03 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

 Prepared Statement of the Honorable Lamar Smith, a Representative in 
   Congress from the State of Texas, and Chairman, Committee on the 
                               Judiciary
    Thank you Mr. Chairman.
    Since September 11th, each proposed change to U.S. immigration 
policy must be thoroughly considered with an eye toward national 
security. Unfortunately, we learned by experience that those who wish 
to do us harm will exploit any weakness in immigration policy to enter 
the United States.
    However, U.S. immigration policy should not be so restrictive that 
it denies access to foreign nationals who want to enter the country for 
legitimate business or travel purposes.
    H.R. 3039 makes several changes to current U.S. visa policy. It 
requires the State Department to issue visas within a span of 12 days 
or less. The bill requires the State Department to conduct a two year 
pilot program that uses video-conferencing in place of the required in-
person interview for a non-immigrant visa.
    H.R. 3039 also requires the State Department to post on their 
website the median wait times for interviews and visa processing. And 
the bill alters the current standard for visa validity so that the time 
period for which a visa is valid is no longer tied to the time period 
of visa validity set by the foreign national's home country.
    These changes have major consequences for U.S. immigration policy 
and national security. We have to be careful not to encourage rubber-
stamping of applications in order to meet a deadline.
    In addition, the use of video-conferencing in place of in-person 
interviews changes current law, which was enacted because the State 
Department did not exercise its authority to interview in-person the 
majority of the 9/11 hijackers.
    The State Department has informally expressed concerns about some 
of H.R. 3039's provisions. So I look forward to hearing the testimony 
of the Gentleman from Nevada and of all of the witnesses today to 
assess the risks and benefits of H.R. 3039.
    Thank you Mr. Chairman and I yield back the balance of my time.

                                 <all>

</pre></body></html>
